                                                   United States Department of State

                                                   Washington, D.C. 20520



                                                         August 5, 2013
John F. Sopko
Special Inspector General for
Afghanistan Reconstruction (SIGAR)

Dear Mr. Sopko,

       Thank you for your feedback on our March 25 response to your query
regarding our top 10 most and least successful projects and programs in
Afghanistan. We found this to be a useful exercise that sparked productive
conversations and enhanced coordination both within the Department of State and
with the U.S. Agency for International Development (USAlD), with whom we
answered jointly.

      Our agencies chose to respond jointly to highlight our close interagency
cooperation in achieving measurable results from our assistance efforts in
Afghanistan in support of our national security goal of ensuring Afghanistan can
no longer be a safe haven for terrorists that threaten U.S. interests. We were
pleased to report on some of the accomplishments of the Department of State and
USAID in Afghanistan in recent years, as well as on some of the problems that we
have faced in implementing foreign assistance.

       We highlighted assistance programs in the education sector, in the field of
public health~ in public financial management, and with respect to promoting the
empowered role of women, access to electricity and good governance and the rule
oflaw. These p-rograms have contributed to measurable positive impacts on
Afghanistan's development and stability:, with achievements- based objective
indicators of progress including improvement on international indices for human,
economic, and democratic development. We also acknowledged that operating in
a war-time environment means it is inevitable that not every program has
succeeded as originally intended. Delays, fraud, poor performance, security
challenges, and contractor overcharges have been an unfortunate feature of trying
to achieve our national priorities in Afghanistan that we have constantly battled
against. Many of the obstacles we have encountered have been well documented
and have benefi ted from SIGAR's oversight.
      In noting in the March response those areas where continuing attention is
warranted given the challenges of operating in Afghanistan, we emphasized that
we share SIGAR 's goal of safeguarding U.S. taxpayer resources from fraud, waste,
and abuse, while seeking the most effective uses of those resources in advancing
our national security through assistance programs in Afghanistan. We look
forward to working together to find ways to improve our oversight mechanisms.

        As we explained in our March letter, however, we monitor and evaluate
individual projects against the detailed standards and outcomes established in the
initial performance documents. Given the wide range of assistance projects and
programs our agencies have carried out, we do not compare individual projects
against others, particularly over a decade of intensive rebuilding efforts, which
result in constantly changing conditions for each project. We also recognize that
achieving our strategic goals in any particular sector in Afghanistan requires a
number of projects working together in time or over time -- including those using
other donors' funds.

       While we recognize the value of many of the points emphasized in your
follow up letter, upon reviewing the modified request we believe we have no
additional information to supplement our response to your original request. We
welcome further discussion and oversight of any of our existing or past
reconstruction projects and programs in Afghanistan.




                                             Sincerely,
                                              I
                                                  l,'r~
                                             Jarrett Blane
                                              l

                                             Deputy Special Representative for
                                             Afghanistan and Pakistan
                                                                       July 5, 2013




The Honorable John F. Kerry
  U.S. Secretary of State

The Honorable Chuck Hagel
 U.S. Secretary of Defense

The Honorable Rajiv Shah
 Administrator, U.S. Agency for International Development


Dear Secretary Kerry, Secretary Hagel, and Administrator Shah:
On March 25, 2013, I wrote to you asking that your agencies provide SIGAR with information on
what each of you considers to be the 10 most successful and 10 least successful projects or
programs within your agency in the U.S. effort for reconstruction of Afghanistan, supplemented
with explanations of selection and evaluation criteria for your choices. A copy of that letter is
attached.
Comparing outcomes is, in addition to being good practice for managers and part of the job for
inspectors general, the subject of formal guidance for Executive Branch departments and
agencies. In May 2012, the Office of Management and Budget issued a memorandum on “Use of
Evidence and Evaluation in the 2014 Budget." That document said, in part:
       Agencies are encouraged to include measurement of costs and costs per outcome as
       part of the routine reporting of funded programs to allow for useful comparison of cost-
       effectiveness across programs. … Once evidence-based programs have been identified,
       such a [return-on-investment] analysis can improve agency resource allocation and
       inform public understanding. … OMB invites agencies to identify areas where research
       provides strong evidence regarding the comparative cost-effectiveness of agency
       investments. i [Emphasis added.]
I recognize that applying cost-effectiveness and comparative analysis to programs and projects
in a contingency-operation zone like Afghanistan, where benefits may include “soft” outcomes
like public opinion, and where multiple programs support similar goals, can be difficult. But the
importance of the mission and the billions of dollars supporting it demand that comparisons be
made as best we can. That consideration—and the well-documented flaws and disappointments
in many U.S.-funded initiatives—was the motive for my March 25 letter to you.
I have the responses to that letter submitted by your designees. Mr. Daniel Feldman, Deputy
Special Representative for Afghanistan and Pakistan, and Mr. J. Alexander Thier, Assistant to the
Administrator for Afghanistan and Pakistan, supplied a joint State/USAID response dated May 9,
2013. Mr. Mike Dumont, Deputy Assistant Secretary of Defense for Asian and Pacific Affairs,
submitted a response dated June 18, 2013.
Both response letters are thoughtful and informative, and include pertinent observations of the
difficulty of executing reconstruction programs in a setting like Afghanistan, plagued as it is by
violence, poverty, illiteracy, corruption, inadequate infrastructure, and other problems. In three
trips to Afghanistan during my first year as Special Inspector General, I have seen and heard
much evidence of the difficulties facing program and project planners, managers, and oversight
officials, both civilian and military. I have special respect for the dedication and bravery of your
staff working in that dangerous part of the world, and agree that they have contributed
significantly to producing some indicators of genuine progress in security, governance,
development, rule of law, human rights, and other areas that will benefit the people of
Afghanistan and America’s policy interests.
Nonetheless, I have some difficulties with the responsiveness of your agencies’ letters.
First, State and USAID made a joint response, despite separate requests having been made to
them. I understand— and am delighted as a citizen and taxpayer—that the agencies are in “close
cooperation” on matters affecting Afghan reconstruction. However, each agency has its own
internal organization and practices, its own in-house Inspector General evaluating that agency’s
projects and programs, and its own list of programs on its own website. Because State and
USAID are legally distinct entities, and because they have operational autonomy within the ambit
of their missions (however closely they cooperate), I ask that the two agencies provide separate
responses to this letter. I speculate that State pursued the path of a joint response because of
the limited number of its programs in Afghanistan; that point will be addressed later in this letter
via slightly modified request language.
Second, neither response letter complied with my request for a listing and discussion of each
agency’s 10 most and 10 least successful projects or programs. The State/USAID response
explicitly said, “we do not compare individual projects against others.” Yet the same letter later
notes that “not every program has succeeded as originally intended,” which I read as evidence
that someone has examined the results of individual programs and observed that some
succeeded and others did not. Defense stated that many reconstruction programs are conducted
in cooperation with partners and are “evaluated on a project-specific basis” rather than
compared. That may well be, but I note that my March 25 letter asked about
“projects/programs,” not exclusively one or the other.
Program evaluation inevitably entails or at least facilitates comparisons of projects. If not, what
basis would agency managers have for deciding—say, in the face of budget cuts, sequestrations,
or new mission directives—which projects to prioritize, expand, contract, terminate, transfer, or
redesign? How do they decide which project managers deserve greater responsibility or career
advancement, or the obverse, without comparing outcomes? How do they capture lessons
learned to improve agency performance without making comparisons? Nonetheless, even if a
formal process of comparing program or project outcomes does not exist within your agencies, I
hope it will not seem unreasonable if I ask you to make at minimum a limited, judgmental
comparison to help SIGAR with its official duties.
My third concern with the agency response letters involves the concept of indicators. The letters
contain many interesting and encouraging data points illustrating or suggesting overall progress
in Afghanistan reconstruction. Unfortunately, many of them show no obvious causal nexus with a
particular U.S. program or project, or present an output as a prima facie indicator of success.
USAID projects and programs are assigned performance indicators that are the basis for


                                                                                               Page 2
observing progress and measuring actual results compared to expected results of the program. ii
Yet the joint State/USAID letter does not identify discrete, program-specific indicators necessary
to identify characteristics and outcomes, or to inform decisions about current and future
programming. Similarly, the Department of Defense mandated that projects executed through
the Commander’s Emergency Response Program (CERP) have performance metrics for all
projects over $50,000 to be tracked up to 365 days after a project has been completed. iii CERP
performance metrics include the issue of sustainability. iv These are worthy requirements, but not
all metrics are equally salient or useful.
For an example of a possibly ambiguous indicator, the State/USAID letter notes that the
proportion of the Afghan population within an hour’s walk of a health-care facility has risen from
9 percent in 2001 to more than 60 percent today. However, Afghanistan has been slowly
urbanizing for decades, with estimates of 4.7 percent annual growth in urban populations in the
2010–2015 period. v So some part of the observed increase in the one-hour’s-walk parameter
simply reflects a demographic trend. As urbanization continues, the indicator would improve
even if health-facility construction stopped completely. For that matter, the indicator could also
improve if more direct or better-surfaced roads and paths were built. Identifying reasonable and
measurable indicators for specific efforts is admittedly not an exact science, but the causal
haziness around the edges of this indicator suggests that careful attention to selection, logic,
and measurement protocol is warranted.
In addition, the health indicators cited in the letter are for the country as a whole and are not
specific to the 13 of 34 provinces supported by USAID. The USAID Inspector General found in
one 2011 audit that
        measurement of the magnitude of USAID’s contribution to the national objectives could
        be made only indirectly using proxy indicators because no current demographic
        information or health statistics were available to measure health outcomes directly. vi
The Afghanistan Mortality Survey of 2010 cited in the joint State/USAID letter does not address
this issue as there is still no clear connection between United States government efforts and
overall health improvements that have undoubtedly occurred since 2001. For example, the
survey reports that the sample design had disproportionate exclusion, particularly of rural areas,
in the southern region that would affect five of the thirteen provinces specifically supported by
USAID. vii Some of these data points also appear to have been selectively chosen in order to
emphasize progress, as with the life-expectancy improvement cited in the State/USAID letter,
with a reported increase from 44 years to more than 60 years in the past decade. The World
Bank, however, purposely did not include the Mortality Survey results in a recent report because
the survey does not have time-series data for the last 10 years. For comparative analysis, they
argue, it is essential to use statistics from a single international database. viii According to the
World Bank figure, Afghan life expectancy is 48 years.
The indicators for education similarly appear to take credit for progress across the country as a
whole without clear attribution to specific United States government efforts. The number of
students enrolled is presented as the national total, but it is not clear what if any connection
there is with the schools built and teachers trained through USAID efforts. I would have expected
information such as the utilization rates of USAID-supported schools, as this would more clearly
connect the United States government effort to the reported student numbers and additionally



                                                                                               Page 3
would provide evidence of Afghan government capacity to make use of assets transferred to
them.
The Department of Defense response offers some information with regard to Afghan government
sustainment, but the examples are restricted to one province and cover only three of 4,000
education projects totaling $230 million obligated. The World Bank has raised the issue of
sustainment, noting that school construction, the same indicator touted in both letters, has
crowded out operations and maintenance, with allocations falling far below requirements and
rarely reaching schools. ix The joint State/USAID and Department of Defense responses to
education highlight my issue with the indicators presented, with the State/USAID response
disconnected from USAID efforts and the Department of Defense relying on anecdotal evidence. x
For another example, the Defense letter notes that more than 194,000 Afghan National Security
Force personnel had “some level” of literacy and numeracy training. That is encouraging, but
given that the 2009 rate of ANSF illiteracy was 86 percent xi and that the ANSF has fairly high
turnover, it does not tell us whether the effort has materially improved the overall ANSF literacy
rate and, more importantly, improved it to the extent of bolstering administrative and operational
success. In addition, the datum does not tell us whether the literacy program itself is efficiently
conducted and monitored.
Finally, on the rule of law, I was disappointed to note that the indicators offered in the joint
State/USAID response did not address two major areas of concern: high-level corruption and
opium production. The letter notes that State and USAID have provided training and support to
Afghan anti-corruption bodies, but unlike the prison statistics, does not give any indication of the
effect, such as types and numbers of successful prosecutions. Sending 13 judges on an
educational trip and putting court personnel through training courses are presumably useful
activities, but such outputs need credible linkages to outcomes. Similarly, the indicators provided
in reference to the drug trade note the scale of the problem, with Afghanistan accounting for
roughly 90 percent of heroin worldwide, but does not connect improvements in the licit economy
with decreases in the illicit economy. In 2012, the USAID Inspector General found that a key
USAID alternative-development program was directed by USAID to focus only on expanding the
licit economy in order to support indicators for the agriculture sector, such as those touted in the
letter, and to ignore goals that dealt with assistance to voluntary poppy eradication and to farms
in the aftermath of opium poppy eradication/destruction programs. xii The report further states
that there was increased poppy growth in the provinces covered by the program, with two of the
covered provinces losing their poppy-free status and five provinces increasing opium cultivation.
The impact of USAID’s agricultural programs on the licit economy are certainly laudable, but if
they do not result in decreased opium cultivation then positive impacts are eroded.
National-level indicators may suggest a positive aggregate impact for U.S. programs, but
individual results certainly vary within program portfolios of project, and positive aggregate
outcomes may mask individual failures or sub-par performance. At times, it is even difficult to
identify an individual result. Unfortunately the letters did not identify specific programs or the
indicators and targets for those specific programs.
Just last month, the State Department’s Office of Inspector General published an audit of the
Bureau of Administration (A Bureau),Office of Logistics Management, Office of Acquisitions
Management (A/LM/AQM), which directs Department acquisition programs and manages a 1
percent fee for its services. Those services include operations, missions, and programs of the


                                                                                               Page 4
Bureau of International Narcotics and Law Enforcement Affairs, the Bureau of Overseas Buildings
Operations, the Bureau of Diplomatic Security, as well as grants, contracts, and agreements with
other nations, non-governmental organizations, and commercial entities. A portion of that State
OIG audit mirrors my concerns and is worth noting here:
        A/LM/AQM was tracking some metrics to assess program performance. However, these
        performance metrics also generally did not tie to the goals in the Business Plan. Without
        measuring its performance, A/LM/AQM cannot ensure it is making progress on its overall
        objective of providing consistent and improved procurement services to the Department.
        Performance management is a systematic process of monitoring the achievements of
        program activities, which includes collecting and analyzing performance data in order to
        track progress toward a defined goal and then using the analyzed data to make informed
        decisions, including allocating resources, for the program. Measuring performance
        against program goals is an essential part of performance management. xiii
As for Defense, GAO has been carrying DOD contract management on its High-Risk List since
1992. In an audit of a military construction that created life-and-safety electrical and fire hazards
for U.S. and other coalition personnel, the DOD IG found the responsible Air Force construction-
management officials “did not develop a formal process to monitor, assess, and document the
quality of work performed by contractor personnel for four projects valued at $36.9 million.” xiv
Such voids in basic data make project comparisons even more difficult.
As you know, SIGAR’s own audits, investigations, and special projects have also addressed
aspects of reconstruction program or project success and failure. But as the preceding citations
to other IGs’ work illustrate, we are not alone in spotting issues. The large body of work by SIGAR,
GAO, and your agency Inspectors General—not to mention numerous agency concurrences in the
findings and recommendations in that work—amply documents that many programs and projects
have systematic weaknesses in framing, planning, execution, and oversight that call out for
improvement. Pursuant to our statutory mandate and as part of our participation in the Joint
Strategic Oversight Plan for Afghanistan Reconstruction, we are preparing additional products for
release and will be launching new initiatives touching on these concerns as the reconstruction
effort proceeds.
As I explained in my March 25, 2013, letter, an important part of our work is understanding how
U.S. agencies evaluate and perceive both their successes and failures. That understanding is
critical for formulating lessons learned from our unprecedented reconstruction effort in
Afghanistan–an effort already accounting for nearly $89 billion in appropriations. U.S.
government agencies need to identify and act on lessons learned from past reconstruction
projects and programs. Timely action can help implementing agencies and Congress adjust
reconstruction programs to protect taxpayer funds and improve outcomes before it is too late.
My letter of March 25 therefore formally requested that you provide:
    •   a list of the 10 Afghanistan reconstruction projects/programs funded and deemed most
        successful by the [agency]
    •   a list of the 10 Afghanistan reconstruction projects/programs funded and deemed least
        successful by the [agency]
    •   a detailed explanation of how these projects/programs were evaluated and selected as
        the 10 most and least successful projects, including the specific criteria used for each

                                                                                               Page 5
Upon considering your responses to that request, I appreciate that identifying the 10 most- and
10 least-successful programs or projects in Afghanistan may entail an unreasonable benefit/cost
burden of research and analytical rigor in comparisons across many initiatives. We have no wish
to impose unproductive burdens upon your staff, especially when many may be inconvenienced
by the impingement of sequestration-furloughs on their work hours. Therefore I will modify my
request and now ask you to provide the following:
   •   a list of 10 of the more successful Afghanistan reconstruction projects/programs funded
       by your agency
   •   a list of 10 of the less successful Afghanistan reconstruction projects/programs funded
       by your agency
   •   an explanation of how you selected the projects in each list and your view of what made
       them more or less successful (e.g., goal framing, requirements identification, acquiring
       activity, agent performance, management, oversight and technical assessment,
       coordination) than intended
Note: In view of State’s more limited program activity in Afghanistan, a reasonable response of
fewer than 10 items in each category will be satisfactory.
Based on your responses, we will identify individual programs and projects for possible further
examination through reviews or audits. This could lead us to look at programs or projects
deemed to have achieved their objectives, as well as less successful undertakings. In addition to
noting the criteria your agency used to evaluate the projects, the results of those evaluations,
and any documented lessons learned, we could assess how well the projects achieved their
stated objectives and whether they contributed to the larger strategic goals underlying the U.S.
government’s Afghan reconstruction efforts.
In addition, for each program examined, we will seek to answer the seven questions laid out in
SIGAR’s January 2013 Quarterly Report to Congress. These are seven questions that decision
makers, including Congress, should ask as they consider whether and how best to use remaining
reconstruction funds. The questions are:
       1. Does the project or program make a clear and identifiable contribution to our
          national interests or strategic objectives?
       2. Do the Afghans want it or need it?
       3. Has it been coordinated with other U.S. implementing agencies, with the Afghan
          government, and with other international donors?
       4. Do security conditions permit effective implementation and oversight?
       5. Does it have adequate safeguards to detect, deter, and mitigate corruption?
       6. Do the Afghans have the financial resources, technical capacity, and political will to
          sustain it?
       7. Have implementing partners established meaningful, measurable metrics for
          determining successful project outcomes?
We believe our reviews and audits, by helping to understand and document how agencies are
planning strategically for reconstruction spending, establishing program objectives, evaluating
programs, and identifying lessons learned, will contribute to improving the efficiency and


                                                                                            Page 6
effectiveness of critical reconstruction programs and mitigate fraud, waste, and abuse. SIGAR
will continue to make every effort to see that Congress and the implementing agencies are fully
informed about the progress of the reconstruction effort—including discussions of agency policy
and practice that have led to good outcomes—and have the information they need to safeguard
U.S. funds and ensure that taxpayer dollars are spent wisely.
I trust this letter clarifies the reasons for my March 25 request, and that my modification of
terms fairly and reasonably addresses the concerns voiced in your previous responses. I look
forward to your response and our continued cooperation in support of the national mission in
Afghanistan.
                                                            Sincerely,




                                                            John F. Sopko
                                                            Special Inspector General
                                                              for Afghanistan Reconstruction

Enclosures

cc: The Honorable James B. Cunningham, U.S. Ambassador to Afghanistan




Notes

i Office of Management and Budget, Memorandum to the Heads of Executive Departments and Agencies,

“Use of Evidence and Evaluation in the 2014 Budget,” May 18, 2012, p. 2.
ii United States Agency for International Development, ADS Chapter 203 – Assessing and Learning,

November 2012, p. 18.
iii USFOR-A, Money as a Weapon System–Commander's Emergency Response Program SOP, March 2012,

pp. 177-178
iv Ibid, p. 40.

v CIA, “World Fact Book,” online, accessed June 19, 2013.

vi USAID OIG, Audit Of USAID/Afghanistan’s On-Budget Funding Assistance to the Ministry of Public Health

in Support of the Partnership Contracts for Health Services Program, Audit Report F-306-11-004-P,
September 29, 2011, p. 3.
vii Afghan Public Health Institute. Afghanistan Mortality Survey 2010, p 10.

viii World Bank, Afghanistan in Transition: Looking Beyond 2014 Volume 2, May 2012, p. 12.

ix World Bank, Afghanistan in Transition: Looking Beyond 2014 Volume 2, May 2012, pp. 88-89.

x The World Bank report further notes that the lack of operations and maintenance funds has caused

education infrastructure to deteriorate, and that the current school population is also heavily concentrated
in grades 1–4, with high dropout rates in higher grades. The World Bank states that widespread concerns
exist over education quality, owing to the poor qualifications of some teachers, lack of a standardized

                                                                                                     Page 7
curriculum, lack of evaluation standards, and insufficiency of basic school supplies. Statistics collected in
2009–10 by a national teacher-registration system indicate that only 27 percent of the 162,000
registered general-education teachers are educated at a grade 14 level, the official minimum requirement
for teaching, or higher.
xi Statement of Lt. Gen. William B. Caldwell IV, Commander, United States Army North, Fifth Army, before

the U.S. House Subcommittee on National Security, Homeland Defense and Foreign Operations, hearing,
Sept. 12, 2012.
xii USAID OIG Audit Of USAID/Afghanistan’s Incentives Driving Economic Alternatives for the North, East,

and West Program, Audit Report F-306-12-004-P, June 29, 2012, p. 5.
xiii State OIG, AUD-FM-13-29, Audit of Department of State Application of the Procurement Fee to

Accomplish Key Goals of Procurement Services, May 2013, p. 50.
xiv DOD IG, Report No. DODIG-2013-052, Inadequate Contract Oversight of Military Construction Projects in

Afghanistan Resulted in Increased Hazards to Life and Limb of Coalition Forces, March 8, 2013, i.




                                                                                                      Page 8
                                    Office of the Special Inspector General
               SIGAR I for Afghanistan Reconstruction

                                                                                          March 25, 20 13


The Honorable John F. Kerry
U.S. Secretary of State


Dear Secretary Kerry,

As you know, my office is charged by Congress with the responsibility for leading, coordinating, and
recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
the reconstruction of Afghanistan. The audits, inspections, and investigations that S IGAR conducts form
the basis for our execution of this responsibi lity.

In a recent conversation w ith the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I believe that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and fa ilures. Such an understanding is critical for formulating lessons learned from our
unprecedented reconstruction effort.

Therefore, I forma lly request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by the Department of State;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by the Department of State; and
    •   a deta iled explanation of how these projects/programs were evaluated and selected as the ten most
        and least successful projects, including the speci·fic criteria used for each.

I am submitting this request pursuant to my authority under Publ ic Law No. II 0-18 1, as amended and the
Inspector General Act of 1978, as amended. Please direct your staff to provide this information by April
25, 2013 , to Monica Brym, SIGAR Director of Special Projects, at monica.j.brym .civ@ mail.mil. If you
have any questions or concerns, please do not hesitate to contact me at (703) 545-6000 or Ms . Brym at
(703) 545-6003. Thank you for your prompt attention to this matter.




cc: The Honorable James B. Cunningham, U.S. Ambassador to Afghanistan




               1550 Crystal Drive, 9th Floor
               Arlington, VIrginia 22202
                                                   Mailing 2530 Crystal Dr1ve
                                                   Arlington, Virginia 22202-3940
                                                                                    I   Tel 703 545 6000   I   www.sigar.mll
               SIGAR               I   Office of the Special Inspector General
                                       for Afghanistan Reconstruction




                                                                                              March 25, 2013


The Honorable Rajiv Shah
Administrator
U.S. Agency for International Development


Dear Dr. Shah,

As you know, my office is charged by Congress with the responsibility for lead ing, coordinating, and
recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
the reconstruction of Afghanistan. The audits, inspections, and investigations that SIGAR conducts form
the basis for our execution of this responsibility.

In a recent conversation with the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I believe that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and fail ures. Such an understanding is critical for formulat ing lessons learned from our
unprecedented reconstruction effort.

Therefore, I formally request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by USA ID;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by USA ID; and
    •   a detailed explanation of how these projects/programs were evaluated and selected as the ten most
        and least successful projects, including the specific criteria used for each.

I am submitting this request pursuant to my authority under Public Law No. II 0-181, as amended and the
Inspector General Act of 1978, as amended . Please direct your staff to provide this information by
April 25, 2013, to Monica Brym, SIGAR Director of Special Projects, at mon ica.j.brym .civ@mail.mil. If
you have any questions or concerns, please do not hesitate to contact me at (703) 545-6000 or Ms. Brym
at (703) 545-6003. Thank you for your prompt attention to th is matter.




cc: Dr. S. Ken Yamashita, USAID Mission Director for Afghanistan



                 1550 Crystal Drive, 9th Floor
                 Arlington, VIrginia 22202
                                                      Mailing 2530 Crystal Drive
                                                      Arlington, VIrginia 22202-3940
                                                                                       I   1i 1 703 545 6000
                                                                                            e                  I   www.slgar.mll
                                    Office of the Special Inspector General
               SIGAR            I   for Afghanistan Reconstruction




                                                                                               March 25, 2013
The Honorable Chuck Hagel
Secretary of Defense


Dear Secretary Hagel,

As you know, my office is charged by Congress with the responsibility for leading, coord inating, and
recommending policies to promote economy, efficiency, and effectiveness of programs and operations for
the reconstruction of Afghanistan. The audits, inspections, and investigations that SIGAR conducts form
the basis for our execution of this responsibility.

Tn a recent conversation with the U.S. Ambassador to Afghanistan, I mentioned that we would be looking
at the most and least successful reconstruction projects, as identified by U.S. agencies. I bel ieve that this
will be a valuable exercise. It is important to understand how U.S. agencies evaluate and perceive both
their successes and failures. Such an understanding is critical for formulating lessons learned from our
unprecedented reconstruction effort.

Therefore, l formally request that you provide:

    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed most successful
        by the Department of Defense;
    •   a list of the ten Afghanistan reconstruction projects/programs funded and deemed least successful
        by the Department of Defense; and
    •   a detailed explanation of how these projects/ programs were evaluated and selected as the ten most
        and least successful projects, including the specific criteria used for each.

I am submitting this request pursuant to my authority under Public Law No. 110-181, as amended and the
Inspector General Act of 1978, as amended. Please direct your staff to provide this information by
April25, 2013, to Monica Brym, SIGAR Director of Special Projects, at monica.j .brym.civ@mail.mil. If
you have any questions or concerns, please do not hesitate to contact me at (703) 545-6000 or Ms. Brym
at (703) 545-6003. Thank you for your prompt attention to this matter.




cc:
General Joseph F. Dunford, Jr., Commander, U.S . Forces-Afghanistan, and
    Commander, International Security Assistance Force
General James N. Mattis, Commander, U.S. Central Command

               1550 Crystal Drive, 9th Floor
               Arlington, VIrginia 22202
                                               I   Mailing 2530 Crystal Drive
                                                   Arlington, Virginia 22202-39 40
                                                                                     I   T
                                                                                         .el
                                                                                               703 5 4 5 6000   I   www.sigar.mll
           USAID
           FROM THE AMERICAN PEOPLE

                                                                                    May 9, 2013

John F. Sopko
Special Inspector General for
Afghanistan Reconstruction (SIGAR)


SUBJECT:               SIGAR Letter to the Department of State, USAID and Department of
                       Defense Requesting Top Most Successful and Least Successful Projects

In response to your letter of March 25, we are pleased to report on some of the accomplishments
of the Department of State and the U.S. Agency for International Development (USAID) in
Afghanistan in recent years, as well as on some of the problems that we have faced in
implementing foreign assistance.

Our agencies have chosen to respond jointly to highlight our close cooperation in achieving
measmable results from our assistance efforts in Afghanistan in support of our national security
goal of ensuring Afghanistan can no longer be a safe haven for terrorists that threaten U.S.
interests. From a society shattered by more than three decades of war, and after more than a
decade of rebuilding, there is now significant statistical data outlining Afghanistan's steady
progress, despite the political, economic, and security challenges presented by that turbulent past.

We monitor and evaluate individual projects against the detailed standards and outcomes
established in the initial performance documents. Given the wide range of assistance projects
and programs our agencies have carried out, we do not compare individual projects against
others, particularly over a decade of intensive rebuilding efforts, which result in constantly
changing conditions for each project. We also recognize that achieving our strategic goals in any
particular sector in Afghanistan requires a number of projects working together over time --
including those using other donors' fimds.

In Part I below, we highlight assistance programs that have contributed to measurable positive
impacts on Afghanistan' s development and stability. The achievements are based on objective
indicators of progress including improvement on international indices for human, economic, and
democratic development. In Part II, we highlight the problems we have encountered in ensuring
the most cost-effective use of taxpayer dollars in achieving these gains and the methods we use
to overcome them.

Part 1: Measurable Results

In the education sector, there are clear indicators of progress. In 2002, only an estimated
900,000 boys, and virtually no girls, were in school. Now, there are 8 million students enrolled
in school, more than a third of whom are girls. University enrollment has increased from 8,000
in 2001 to 77,000 in 2011. USAID has supported these gains by building 605 schools, training
                                                -2-


teachers, and developing university teaching degree programs. Multiple implementers, donors
and coordinated projects are responsible for these achievements. Additionally, the Embassy's
Public Affairs Section funded the Bagch-i-simsim (Sesame Street) radio project. This project
builds upon the success of the television project with the same name and targets millions of
young rural Afghan children who do not have access to a television. The program's themes
spread the values of tolerance, fairness, and peaceful resolution of conflict. Twenty-six different
episodes of 30 minutes each in Dari and Pashto are broadcast on multiple radio stations
throughout the country. Each show includes original content that is aligned with the Ministry of
Education's early childhood educational framework.

Other U.S. Government-sponsored education programs target other equally important audiences
and are designed to build capacity in critical government sectors and achieve foreign policy
goals. In November 2012, the State Department hosted a two-week training program in
Washington for 13 Afghan diplomats in partnership with the Public Diplomacy Council and the
University of Maryland. Through formal training sessions, lectures, interactive simulations, and
site visits, the Afghan visitors developed their practical skills as diplomats and gained better
understanding of United States culture and policy, particularly the importance of women's rights
and human rights. The importance of regular interaction with a free and independent media in a
democracy was also highlighted.

The program wa~ the second phase of a joint training program for Afghan diplomats; the first
phase was sponsored by the Government of China and took place in Beijing in May. By building
the capacity of the staff of the Afghan Ministry of Foreign Affairs, we enhanced its
professionalism and its ability to work cooperatively and effectively with the U .S. government
and other countries, as well as NGOs, media outlets, universities, businesses, and religious
institutions.

In the field of public health, since the displacement of the Taliban, the Afghan Ministry of
Public Health has been successful in rebuilding the healthcare system with low cost, high impact
interventions, to improve the health of Afghans, primarily women and children. With substantial
support from the United States and other donors, access to basic health services (defined as a
person' s ability to reach a facility within one hour by foot) has risen from 9 percent in 2001 to
more than 60 percent today, and more than 22,000 health workers have been trained through
multiple projects.

According to the Afghanistan Mortality Survey 2010, Afghanistan has seen a rise in life
expectancy from 44 years to more than 60, or an increase of 15-20 years, in the last decade. The
under-five mortality rate has been reduced from 172 to 97 deaths per 1,000 live births. The
estimated maternal mortality ratio declined significantly from 1,600 per 100,000 births to 327
per 100,000 births. The number of functioning primary health care facilities increased from 498
in 2002 to over 1,970 in 2010.

The gains made in the health sector are due to a coordinated effort by the donor community in
the early stages of the rebuilding efforts, a focus on providing low-cost basic health services, and
a determination by the Afghans to strengthen the Ministry of Public Health. These are long-term
programs that span multiple donors, and various contractors and grantees over a decade of
determined focus by the health teams at USAID and the international community in concert ·with
the Afghan Government.

In public fmancial management, USAID's support has helped the Afghan government grow its
internal revenue collection by almost 20 percent per year since 2002. Domestic revenue is
critical to reduce the Afghan government's reliance on foreign assistance and to promote long-
term sustainable growth through investment in infrastructure and services. In 20 I 0/11, domestic
revenue reached $1.7 billion or 11 percent ofGDP, exceeding the IMF target of9.2 percent per
year. Revenue from Customs is the fastest-growing segment, increasing more than 400 percent
since 2006. USAJD's programs have assisted the Afghan government to develop a centralized
Customs collection system, contributing to the sharp increases in annual Customs revenues.
Afghan domestic revenue collection has underperformed in 2012, and US AID is working \\-ith
the Ministry of Finance to identify potential reasons and remedial actions to address the shortfall.

To promote the role of women in Afghan politics, culture, and business, our work has helped
Afghan women take on larger roles in society. Today, almost 20 percent of Afghans enrolled in
higher education are women. Twenty seven percent of seats in the Parliament, one governor,
three cabinet, and 120 judicial positions are now held by women. Hundreds of women's
organi7..ations are working to end violence and discrimination against women, and the Afghan
Government has committed to ensuring that by 2013 at least 30 percent of government
employees are women.

The Department of State's Bureau of International Narcotics and Law Enforcement (INL) ftmds
Women tor Afghan Women to operate Children's Support Centers (CSCs) in Kabul, Mazar-e
Sharif, and Kunduz. The CSCs provide housing and educational services for children who
would otherwise be in prison with their incarcerated mothers. The majority of these children
have had little to no formal education prior to arriving. CSC-educated children are at the top of
their classes and some have been placed in advanced study programs abroad. Children are
allowed to stay at the CSC until they tum 18 years of age (even after their mothers are released),
allowing their mothers to have the time needed to construct a stable home environment. INL's
commitment to helping these children improve their lives has been key to the overall success of
this program.

INL also supports the operations of nine women •s shelters across Afghanistan and the Afghan
Women's Shelter Network, which brings together Afghan shelter providers to discuss best
practices and advocate for victims. INL's support has expanded the number of provinces where
services are available to victims of gender-based violence and discrimination and facilitated an
Afghan-led campai.gn to increase public acceptance of women's shelters. We have seen an
increase in government referrals to and political support for the shelters, indicating that the
Afghan government is starting to accept shelters as legitimate resources for women seeking legal
and protective services. Shelters have been provided multi-year funding that extends into 2015.
In 2012, INL-funded shelters benefited approximately 2,000 women and children in 30 of
Afghanistan's 34 provinces.
                                               -4-


To promote access to reliable electricity, USAID assistance has included hydro-electric and
solar facilities, and has focused on making the Afghan national power company (DABS) self-
sustaining through increased revenue collection and increased efficiency. In 2002, only 6
percent of Afghans had access to reliable electricity. Today nearly 30 percent do, including
more than 2 million people in Kabul who now benefit from electric power 24 hours a day.
DABS has increased revenues country-wide by roughly 50 percent from 2010 to 2012. Ibis
represents hundreds of millions of dollars saved in subsidies from U.S. taxpayers and other
donors. The success of DABS over such a short period of time, four years, is a remarkable
achievement.

To promote good governance and the rule of law in Afghanistan, INL has, through its
implementing partner, assisted the General Directorate of Prisons and Detention Centers
(GDPDC) in improving its capability to operate safe, secure, and humane Afghan correctional
facilities. This is particularly important, given the sharp increases in arrests and prosecutions,
which caused the prison population to grow dramatically from 600 prisoners in 2001 to more
than 27,000 in 2013. Despite poor infrastructure, comparatively low staff salaries, and a 17
percent annual inmate growth rate, the GDPDC has built and maintained humane facilities,
worked to separate National Security Threat (l\ST) inmates from common criminals, and
implemented standard operating procedures in line with international standards in an expanding
number of prisons and detention centers. These improvements can be attributed in part to
comprehensive hands-on mentoring and training by INL's Corrections System Support Program
(CSSP). CSSP advisors have trained 8,000 corrections officers since 2006, under rigorous
oversight from INL's program managers and contracting personnel. INL's focus on training
Afghan Government trainers not only created sustainable training capacity, but has resulted in
the successful transfer of 90 percent of all corrections training activities to the Afghan
government, an important milestone in the development ofGDPDC' s capabilities.

The State Department and USAID also provide training to the judicial sector and other elements
of Afghan criminal justice institutions, for example, through the State Department's work with
the Justice Center in Parwan (JCIP). The JCIP is a special Afghan court for the adjudication -
under Afghan law, and by Afghan judges, prosecutors and defense counsel- of criminal charges
filed by Afghan authorities against former U.S. Law of Armed Conflict (LOAC) detainees. 1be
JCIP is a partnership of the Afghan Supreme Court, Attorney General's Office, Ministry of
Justice, Ministry ofthe Interior, National Directorate of Security and Ministry of Defense, with
support from Combined Joint Interagency Task Force 435, the Australian Agency for
International Development, and INL.

Coordinated U.S. Government support enables the JClP to hear thousands of cases and builds
both the adjudicativ;e capacity of the court and its personnel. The JCIP did not exist three years
ago: it heard its first case in June 2010. The JCIP tried 31 primary court cases in 2010; 288 in
2011; 974 in 2012; and 780 in just the first four months of2013. Even with its growing
caseload, Afghan defense attorneys who have worked at the JCIP consistently describe the court
as providing among the fairest trials in Afghanistan. INL provides formal training, daily
mentoring, and operational support to nearly 100 Afghan judges, prosecutors, defense counsel,
and investigators in evidence-based criminal investigations and prosecutions. In addition to
                                               -5-


strengthening the Afghans' ability to try the important national security cases at the JCIP, INL's
capacity-building support allows these legal professionals to take the skills, experiences, and
lessons learned from the JCIP to their next assignments, expanding the impact of INL' s support
across the Afghan justice system.

The Department of State's Anti-Terrorism Assistance (ATA) program has built and developed
the Presidential Protective Service (PPS) into an effective dignitary protection unit Beginning
with the inception of the unit a year after 9/11, the ATA program has provided training,
equipment and mentorship to several hundred PPS officers at the unit's camp facility. Not only
has PPS received extensive training in tactical skills such as protection of national leadership,
counter-assault, and defensive marksmanship, it has also institutionalized the wealth of
information in those courses into its ov.n training structure. Through participation in instructor
development courses and ongoing work with ATA advisors, PPS has developed the ability to
train its own officers in these specialized protective skills. In addition, Department of State-
funded implementing partners have cleared more than 343,414,869 square meters ofland and
removed or destroyed approximately 8,049,260 landmines and other explosive remnants of war
such as unexploded ordnance, abandoned ordnance, stockpiled munitions, and home-made
explosives.

Part II: Problems and Solutions

The programmatk achievements noted above represent just part of the progress achieved by
Afghanistan with the support and sacrifice of the United States and other donors over the past
decade. Operating in a war-time environment means it is inevitable that not every program has
succeeded as originally intended. Delays, fraud, poor performance, security challenges,
contractor overcharges have been a too-constant feature of doing business in Afghanistan- and
many of the obstacles we have encountered have been well documented and have benefited from
SIGAR's oversight.

To fight corruption, we have worked aggressively to provide training and pressed the Afghan
government to address corruption on a systematic basis. USAID is supporting the fight against
corruption both in the way we do business, such as encouraging the use of mobile money to
ensure wages are paid directly into personal accounts, and through projects like the Assistance
for Afghanistan, s Anticorruption Authority (4A), which supports the High Office of Oversight in
the Afghan government to combat corruption.

To improve the rule of)aw and fight criminal activities, USAID and the Department of State
work together in severai areas. Afghanistan's role in the international drug trade - accounting
for roughly 90 percent of heroin worldv.ide -- contributes to increased crime, degrades the
establishment of governance and the rule of law, undercuts the licit economy, and undermines
public health. USAID and Department of State are working to reduce poppy cultivation by
strengthening the Afghan Government's capacity to combat the drug trade and countering the
link between narcotics and the insurgency. USAID's agricultural programs have helped
establish 314,268 hectares with alternative crops, increased sales of licit farm and non-farm
                                               - 6-


products by $273,333,642, benefited 2,519,420 families, and created 192,686 full-time
equivalent jobs between FY 2008-2012.

Growth of the nation's licit economy is impeded by a largely illiterate workforce that lacks vital
technical skills, as well as credit and banking systems that are underdeveloped and fragile.
Meanwhile, porous borders encourage unlawful trade. These challenges, plus corruption and
security concerns, continue to hinder physical and capital investment, especially by the private
sector.

Inadequate security and a shortage of skilled technicians, engineers and construction workers
hinder the construction and maintenance of critical infrastructure. Construction supplies often
have to be imported, significantly increasing project costs.

Across sectors, a persistent insurgency and difficult security environment have made the mission
much harder, despite the strong presence of the International Security Assistance Force (ISAF).
As an example, on one USAID road project, 19 people were killed while working on
construction, and 364 security incidents were reported. Security dangers often slow progress, and
daily activities are made more complicated by an atmosphere of opportunism, corruption and
lawlessness.

To effectively monitor the use of taxpayers' funds where there is a lack of capacity, USAID
and State employ numerous oversight mechanisms at every project phase - from awarding the
contract to revie'\.ving payment claims, to overseeing the performance of our implementing
partners. The Afghanistan mission uses these and more. In remote, insecure areas, USAID's
monitoring and evaluation efforts are supplemented by third-party evaluators. As you are aware,
in addition to our work with your office, we also work with a variety of independent oversight
entities, including the State and USAID Offices of the Inspectors General and the U.S.
Government Accountability Office and share the goal of ensuring U.S . ftmding is not wasted or
abused.

In addition, by monitoring and evaluating outcomes, we are constantly seeking new ways to
ensure taxpayer dollars are being used most effectively, focusing on the return on our project
investment. Administrator Shah issued Sustainability Guidance to ensure that every USAID
program supports increased Afghan ownership, contributes to stability, and makes the most of
limited funds. Department of State programs conduct similar analyses in developing projects.

In Afghanistan, USAID is strengthening award mechanisms, vetting, financial controls and
project oversight, working closely '\\lith our Afghan and ISAF counterparts. On an interagency
level, databases such as FACTS Info and Afghan Info allow USAID and the Department of State
to share project information, metrics~ best practices and more. With Afghans, we have also
launched the Assistance for Afghanistan's Anti-Corruption Authority series of initiatives to
encourage transparency and accountability. This includes helping the Afghan government
develop a strong anti-corruption policy and establishing a joint committee v.'ith U.S. Forces-
Afghanistan and ISAF on contractor vetting and corruption.
                                              - 7-


To ensure accountability, some projects are drastically altered or funding stopped.
USAID's rigorous emphasis on evaluation led us to take a hard look at the Strategic Provincial
Roads project in eastern and southern Afghanistan. After three years, project outcomes were
falling far short of project objectives. To avoid continued investment of taxpayer funds into an
under-performing program, US AID ended the project in fall 2011.

In other cases, program benefits merited continued investment-with strategic recommendations
for improvements. The National Solidarity Programme in Afghanistan had reached thousands of
communities, but payment delays and operating risks in insecure areas threatened to limit future
outreach. Today, the program tracks indicators of good governance, such as transparency and
accountability, and: an inter-ministerial committee is exploring the role existing community
development councils can play for expansion into insecure areas.

  In June 2009, after the Afghan Government took back control of its central prison from
i..r."lsurgent inmates, INL began a comprehensive renovation. Poor contractor performance and
corruption led the Department to halt renovations and terminate the contract.. The problems with
this project highlighted the need to have an adequate number of Contracting Officer
Representatives (CORs), Governmental Technical Monitors (GTMs), engineers, and program
officers on the ground to provide oversight. Recognizing the need to improve oversight of
construction projects, INL has significantly increased the number of U.S. and locally engaged
(LE) engineers in Afghanistan and has strengthened its review and management policies.

To promote dialogue among tribal elders and the Ministry of Border and Tribal Affairs, a State
public diplomacy project planned to conduct jirgas and shuras with government and local
leaders. However, the implementing partner, Afghan Community Consulting, was unable to
obtain adequate cooperation from the Ministry of Border and Tribal Affairs, particularly with
regard to oversight of funds, or evidence of the number of participants a11d outcomes. When it
was determined that adequate oversight could not be achieved on spending or outcomes, PAS
Kabul terminated the grant, suspended future jirgas, and determined the amount of funds owed to
the embassy for incomplete work, which were all returned.

We appreciate this opportunity to highlight a number of our programmatic achievements with the
Afghan government and people over the past decade, as well as to note those areas where
continuing attention is warranted given the challenges of operating in Afghanistan. We share
SIGAR' s goal of safeguarding U.S. taxpayer resources from fraud, waste, and abuse, and
advance while seeking the most effective uses of those resources in advancing our nation' s
national security through assistance programs in Afghanistan. We look forward to working
together to find ways to improve our oversight mech ·sms.




Daniel Feldman                                       J    xander Thier
Deputy Special Representative                        As istant to the Administrator
for Afghanistan and Pakistan                         for Afghanistan and Pakistan
                      OFFICE OF THE ASSISTANT SECRETARY OF DEFENSE
                                        2700 DEFENSE PENTAGON
                                       WASHINGTON , D.C. 20301-2700



ASIAN AND PACIFIC
SECURITY. AFFAIRS



                                                              June 18,2013

        Mr. John Sopko
        Special Inspector General for
        Afghanistan Reconstruction (SIGAR)
        1550 Crystal Drive
        Arlington, VA 22202

        Dear Mr. Sopko,

                In response to your letter ofMarch 25, 201 3, the Department of Defense (DoD) reviewed
        reconstruction activities in Afghanistan and prepared the enclosed overview of successes and
        challenges. The U.S., Coalition, and Afghan partners have reached a decisive milestone in the
      · campaign. Later this month, the Afghan goveniment and the ANSF will formally assume lead
        security responsibility across all of Afghanistan. This is the Afghans' greatest demonstration to
        date of real progress towards stability and sovereignty. The enclosed response provides an
        overview of what we have done to get to this point and some of the things we are focused on to
        sustain these gains.

                 The DoD reconstruction efforts in Afghanistan aim to expand security and stability in
        order to achieve our core objectives: to ensure al Qaeda never again uses it as a safe haven to
        c.onduct international terrorists attacks and to ensure the Taliban do not overthrow the Afghan
        Government. Since the initiation of the campaign in Afghanistan, the DoD has provided support
        to a wide range of reconstruction activities with impact on the security, economic, and
        governance sectors. Many reconstruction programs are conducted together with other U.S.
        agencies and Coalition partners as part of the integrated civil-military campaign. Typically,
        reconstruction programs are evaluated on an individual basis according to program-specific
        criteria and their contribution towards our broader objectives in Afghanistan. Our main metrics
        for how we are achieving these objecti~es are specified in statute and are reported on in our
        semi-annual "Report on Progress Toward Security and Stability in Afghanistan." ·We also
        provide extensive information for your quarterly reports to Congress on these efforts.

                 The enclosed information on the DoD priority reconstruction activities highlights
        progress and challenges experienced in the development ofthe Afghan National Security Forces
        (ANSF) and select infrastructure programs. The response reviews the positive impact of DoD
        efforts to grow, train, and equip the ANSF and identifies capability shortfalls that persist. It also
        highlights the social, economic and security benefits that accrue from a multitude of DoD-funded
        infrastructure projects while acknowledging the challenges that remain, including growing the
        capacity of the Afghan government to sustain critical infrastructure.




                                                       0
        Thank you for the opportunity to provide this assessment of ongoing reconstruction
projects and programs in Afghanistan. We want to ensure that American taxpayers are getting
the results they expect from our reconstruction efforts in Afghanistan. We appreciate the
important role that the Special Inspector General plays to promote the efficiency and
effectiveness of those programs and operations, and we will continue to work together to ensure
proper oversight and accountability of government funds.


                                                    Sincerely,


                                              ~t9  Mil<e Dumont
                                                   Deputy Assistant Secretary of Defense
                                                   Asian & Pacific Security Affairs




Attachments: Department of Defense Response to SIGAR March 25 Inquiry
               Department of Defense Response to SIGAR March 25 Inquiry


Security Sector Reconstruction

Among the multiple lines of effort in Afghanistan, the Department of Defense's central effort has
been the development of the Afghan National Security Forces (ANSF) into a force capable of
assuming lead security responsibility throughout Afghanistan and providing for its own internal
security. As a result ofthe concerted effort by the Afghans, U.S. and Coalition partners, we have
seen a significant turnaround in the security sector in Afghanistan.

As of late 2002, the Afghan government did not have legitimate control of any of the security
elements in Afghanistan. The Afghan National Army (ANA) was established in early 2003,
followed in 2005 by the Afghan National Police (ANP), but for years both suffered from poor
leadership, low training standards, inadequate equipment and the absence of a sustainment
system. As of2009, the ANSF still lacked combat capability to meet its internal security
requirements. The combined military and police forces totaled approximately 200,000, and the
mission was largely confined to guard duty at static check-points. The ANSF lacked hardened
vehicles, possessed limited fire support with no indirect engagement capability and had
rudimentary aircraft with no casualty evacuation capability. They were further constrained by
insufficient ammunition, small arms and a minimal ability to resupply. The ANSF throughout
Afghanistan were understrength, fragmented, and devoid of the basic skills necessary to
coordinate operations at echelons above the kandak or battalion level. The ANSF were not
capable of securing Afghanistan, and U.S. and Coalition forces bore almost all the burden-and
casualties-of this mission.

In late 2009, with President Obama's announcement of the U.S. troop surge, a concerted Coalition
effort to grow the ANSF was initiated, with the goal of generating and fielding trained and equipped
Afghan combat elements capable of pushing back the Tali ban and establishing security in populated
areas. A combined ANSF and International Security Assistance Force (ISAF) partnership
established training programs and an equipping plan to rapidly develop ANSF combat capabilities.
Unit partnering between Afghan and ISAF forces, enabled by the troop surge, provided the space to
develop ANSF capabilities and leadership skills from the tactical level up. This resulted in a current
force of over 340,000 military and police personnel with proven capabilities in counterinsurgency
operations with increasing coordination across the Army, Police, and intelligence personnel.
Although nascent, the ANA has demonstrated an emerging ability to conduct more complex
combined arms operations by synchronizing infantry, artillery and other combat capabilities at the
Corps/Brigade level. In some areas, the ANSF have implemented a layered security concept that
decreases vulnerabilities in any single arm ofthe force by leveraging the capabilities of the entire
force (e.g., Afghan Local Police (ALP), ANA Special Operations Forces (ANASOF), ANA, ANP,
Afghan Border Police (ABP), National Directorate of Security (NDS), etc.), providing security to the
Afghan people with minimal or no assistance from the Coalition.

The ANSF, and especially the ANA, have made remarkable progress, particularly since early 201 2.
In late 201 2, the ANA had no corps/division headquarters and only one of the 23 Afghan National
Army (ANA) brigade headquarters capable of conducting independent operations. Today the ANA
has one corps/division headquarters, five brigade headquarters and 27 battalions capable of operating
independently. Another six ANA Corps/Divisions, 16 ANA Brigades and 71 battalions are rated as
"Effective with Advisors." ANP units have also improved, with 44 units rated as "Independent with
Advisors" and a further 86 units rated as "Effective with Advisors." 1 The growing ANA Special
Operations Command (ANASOC) has also made strides towards becoming an independent and
effective force- with the vast majority of ANA special operations forces (SOF) missions, to include
night operations, being Afghan-led. The ANSF are now leading over 80 percent of total operations
and carrying out many unilaterally. ISAF unilateral operations account for less than 10 percent of
total operations nationwide, and in many provinces, ISAF unilateral operations account for less than
1 percent. The Afghan government will soon announce Milestone 2013: recognizing the Afghan
assumption of security lead for 100 percent of the population and the International Security
Assistance Force (ISAF) will shift to an advisor-support role.

A few areas of development are highlighted below to show the impact of the combined U.S. and
Coalition forces security force assistance programs to the ANSF:

•   Build. The ANSF have grown 73 percent in overall numbers since 2009. This growth is
    extraordinary given that the ANSF have been actively engaged in combat operations while
    building the force. In addition, the Afghan Local Police, a village-based security program
    administered by Ministry of Interior (Mol) and aimed at expanding security and governance,
    has also grown at a steady pace from 3,100 in January 2011 to over 21,000 in March 2013.
    An emerging ANSF maneuver capability is the Mobile Strike Force (MSF), an armored,
    wheel-based platform conceived to rapidly reinforce infantry units. The fielding of seven
    MSF kandaks has begun and is projected to be complete by December 2014.

•   Equipping. The total Afghan security forces consist of six ANA combat corps, an
    ANASOC, which includes an Afghan Special Mission Wing, hundreds of ANP units, and an
    ALP equipped with more than 14,700 up-armored vehicles; 68,900 other combat support
    vehicles; haifa million pieces ofweaponry, including more than 1,500 indirect-fire weapons;
    193,000 pieces of communications equipment; 10,500 night-vision devices; and a growing
    counter-lED capability consisting of24 Route Clearance Company units with 457 mine
    rollers.

•   Training development. Through professional development branch schools, including the
    National Military Academy of Afghanistan, and institutional training centers, including the
    premier Kabul Military Training Center (KMTC), the ANSF have received leadership and
    technical training to develop the capabilities needed to sustain the force. To augment
    training capacity, the ANA and ANP are using mobile training teams to provide professional
    training to personnel fielded without training at branch schools. In accordance with the
    overall Transition, the ANSF developed a self-training capability, via the "Train the


1
 " Independent with Advisors" is defined as the unit being able to plan and execute its mission and, if necessary, can
call for and integrate joint effects from Coalition forces. "Effective with Advisors" means that the Coalition provides
only limited, occasional guidance to staff and may provide enablers that are missing from higher or lower ANSF
units.
    Instructor" program and have grown their number of instructors by 60% since 2010. The
    ANSF now conducts 85 percent of all training, including all basic courses.

•   Sustainment. The ability of the Afghan forces to supply and sustain themselves remains a
    significant challenge and is a focus of current DoD assistance. As their capabilities develop,
    the ANSF are gradually taking responsibility for combat service support and sustainment
    responsibilities, including distribution, maintenance, ammunition management, fuel and other
    classes of supply at the national and regional logistics nodes and institutions. Several classes
    of supply including Class I Subsistence (food and water), Class II Individual Equipment
    (clothing), Class IV (construction materiel), and Class VI (personal items) have already been
    fully transitioned to ANSF control. For the MoD, the Central Movement Agency (CMA)
    conduct monthly resupply missions to the ANA forces on their own from the Central Supply
    Depot (CSD).                          .

•   Literacy. Widespread Afghan illiteracy also poses a challenge for developing the ANSF into
    a sustainable force with the requisite technical and leadership skills. Literacy training efforts
    for the ANSF have been expansive to tackle this issue. Between November 2009 and April
    2013, over 194,000 ANSF personnel passed some level ofDari and/or Pashto literacy and
    numeracy training, including over 57,000 who have achieved Level 3 literacy. As of April
    2013, over 73,000 ANSF personnel are in some fonn ofliteracy training.

•   Ministerial development. The Ministries of Defense and Interior must have the capacity to
    organize, resource, train, and sustain their forces, and to exercise command and control over
    them. With the ANSF force structure nearly complete, the DoD is focused on ministerial
    development and is adjusting an existing program to deploy DoD functional experts to help
    develop crucial ministry capabilities, such as: resource management; acquisition; contracting;
    strategy and policy development; and human resources management.

While the ANSF have demonstrated remarkable progress, shortfalls persist in some enabler areas,
including command and control, intelligence fusion, logistics, counter-lED, fire support, and air
support. Having realized the goal of growing and equipping the ANSF into a force capable of
assuming the lead security role, we have shifted emphasis to increasing the quality and
professionalism of the ANSF. As we move beyond combat operation capability to more technical
areas, we are building off the literacy improvement to increase professionalism, upgrade intelligence
capability and improve the sustainment systems (including logistics and maintenance). Many of the
units that remain to be fielded are specialty units and critical enablers and will require more time to
receive training that is more technical in nature. The DoD developed a plan to accelerate the
development of enabler capabilities, including expanded training in logistics, maintenance,
engineering, and intelligence. The FY14 DoD budget request for Afghan Security Forces Fund
includes $2.6B to support this effort.

The progress made by the ISAF-led surge has put the Afghan government in control of all
Afghanistan's major cities and 34 provincial capitals. ISAF's focus is now shifting from directly
fighting the insurgency to supporting the ANSF in holding these gains. Through the ISAF
Security Force Assistance Team (SFAT) concept of train, advise, and assist, we expect the
ANSF will take full security responsibility for Afghanistan while simultaneously gaining
proficiency in combat enablers and combat service support systems.

Construction and Infrastructure Development

The Department of Defense has also provided support to numerous projects and programs
focused on developing civilian and military infrastructure that enable social, economic,
governance, and security improvements that bring stability to Afghanistan. These efforts help
strengthen the connection between the Afghan population and the district, provincial and
national governments, facilitate access to security, healthcare and commerce, and help maintain
security and stability gains. Below are some illustrative project and program highlights of the
impact these activities have had and the benefit they provide to the overall mission:

Security Sector Infrastructure

ISAF is nearing completion of its infrastructure building program for the ANSF, which will
deliver the final429 projects by December 2014 and result in a program end state of more than
3,900 separate structures, valued at $9.4 billion, built for both the Ministry of Defense and
Ministry of Interior. These include national and regional headquarters, military hospitals, training
centers and schools, and forward operating bases, and have helped expand the reach of the
security, governmental, and medical services. This program is continuously reviewed to ensure
that the current infrastructure projects are still valid requirements, and has resulted in the
reduction in total cost ofthe ANSF program from the originally planned $11.38 billion to $9.41
billion. As these projects come to completion, facility maintenance will be a challenge. Both
ANSF organic capability and contracting support to maintain facilities are still nascent and the
number of assigned facility engineers for both MoD and Mol are below targets. As a bridging
strategy, the U.S. Army Corps of Engineers (USACE) provides facility maintenance and training
for a period of up to six months following construction completion, allowing time to build the
capabilities of assigned Afghan engineers.

Civil Sector Reconstruction

The DoD recognizes education as a priority for increasing security and stability and continues to
use the Commander's Emergency Response Fund (CERP) to advance development in this area.
The DoD has obligated more than $230 million in CERP funds to support more than 4000
projects aimed at improving the education of Afghan students, including building and
refurbishing schools, and the purchase and distribution of millions of textbooks for math,
science, language, civics, history, and cultural studies.

CERP projects in Farah highlight these contributions. A series of schools were built in Farah
province over the past few years and are successfully staffed and maintained by the Afghan
ministry of education, including Zehken School, Lash Juwain High School, Qala Zaman High
School, Mirman Nazo High School, Runaakha School, and the Pir Kunder School.

    Zehken Girls School Project. A school built specifically for the education of girls in the
    northwestern district of Anar Dara in Farah province was completed in July of2009 and has
    been educating girls in Anar Dara ever since. Teachers and building maintenance are·
    supplied by the Ministry of Education. ·

    Lash Juwain High School Project. This secondary school built in the southwestern district of
    Lash Juwain is one ofthe few High Schools in the region. It was completed in 2008 and has
    continuously educated students since then.

    Runaakha Girls School Project. This girls' school was built in the First District of Farah City
    in 2006 and has been continuously used and maintained since then.

In the first quarter of2013, the DoD funded the procurement and delivery of desks and chairs for
students in Mazar-e-Sharif who would otherwise sit on classroom floors due to overcrowding.
As the operational environment has matured with more emphasis on stabilization and enabling
governance, support for education programs is even more critical, especially for increasing the
role ofwomen within the Afghan government and society.

The DoD has also provided substantial support to building and refurbishing healthcare facilities
throughout Afghanistan, and recently completed the construction of a small district hospital in
Shindand that brings a higher level of medical care to over 240,000 Afghans.

  The DoD has played a key role in providing increased electrical power to the restive areas of
  Kandahar and Helmand provinces. The Kandahar Bridging Solution, initiated through CERP,
. and maintained with the Afghanistan Infrastructure Fund, rapidly provided additional electricity
  to the Kandahar City area helping to increase stability and security in the area. The power
  project increased the availability and reliability of electricity to hundreds of thousands of
  residents and facilitates employment, communication, healthcare, education and industry. While
  in 20 I 0 there were only three factories in the Shorandam Industrial Park powered by their own
  small generators, there are now roughly 66 factories in Shorandam with the additional power
  made available through the Kandahar Bridging Solution.

Finally, the DoD supports the development of road infrastructure. Improving the Afghan' s
ability to move freely around the country (both civilians and military) via paved road network is
an important part of establishing and maintaining stability and security, enhancing economic
development and improving the lives of the Afghan populace. The DoD has successfully built
and refurbished a number of roads throughout Afghanistan. One prime example is the Nawa to
Lashkar Gah road paving project in the southwest, funded by the Afghanistan Infrastructure
Fund, which provides an important link between Nawa and the provincial capital of Lashkar
Gah. The highly successful paved road has increased security for the population, and improved
access for many residents to the more sophisticated health care offered in Lashkar Gah. The
road is also bolstering commerce between the two cities, decreasing the delivery time for
perishable goods, and facilitating increased overall economic activity throughout the region.

While the Afghan government continues to develop the capability and capacity to sustain
transportation networks and power infrastructure, the ministries responsible for maintaining this
critical infrastructure still require continued training and assistance to adequately execute an
Operations and Maintenance plan on the scale required for Afghanistan. Identification, ·
budgeting, and financing of externally financed assets will be a challenge facing transition. The
Afghan government will have to maintain the political will for reforms to grow internal capacity
in order to sustain existing infrastructure. Improvements in capacity will support both the
budgeting processes for O&M costs, as well as the disbursement of the budget throughout the
year, increasing the likelihood of sustainability for assets and service delivery.
